                                                    OFFICE OF INSPECTOR GENERAL
                                                                              MEMORANDUM




DATE:          December 14, 2000

TO:            Inspector General

THRU:          Thomas Bennett
               Assistant Inspector General for Audits

FROM:          Robert Shipp
               Director, Contract Audits

SUBJECT:       Survey of Mass Media Bureau (MMB) Multipoint Distribution
               System/Instructional TV, Fixed Services (MDS/ITFS) System


The Office of Inspector General (OIG) has completed a survey of the Mass Media Bureau
(MMB) Multipoint Distribution System/Instructional TV, Fixed Services System (MDS/ITFS)1
development and implementation. The objective of the survey was to: (1) obtain information
about the MDS/ITFS development project; (2) evaluate project documentation to assess whether
MMB developed and implemented the system in an economic and efficient manner; and (3)
determine the nature and extent of any subsequent review work. The purpose of this survey
memorandum is to summarize the results of the survey, document significant observations, and
identify areas where additional audit work should be performed.

BACKGROUND

MMB took over administering the MDS development project from the Associate Managing
Director – Information Management (AMD-IM) in September 1996. This project was initially a
Department of Justice (DOJ) contract vehicle, beginning in FY 1994, that AMD-IM used to
begin developing an electronic licensing system that efficiently processes and issues licenses for
broadcast stations that are awarded through auctions. DynCorp Information & Electronic

1
       MMB developed the MDS/ITFS as a replacement for the Instructional TV, Fixed Service portion of its
       Broadcast Application Processing System (BAPS) and to incorporate Multipoint Distribution Service
       (MDS) licensing functions. In the third quarter of FY 2000, MMB renamed MDS/ITFS as the Broadband
       Licensing System (BLS). However, for consistency, this memorandum will reference the system as
       MDS/ITFS.
Technology (hereafter referred to a “DynCorp”) is the contractor the FCC tasked with
developing the MDS and integrating the ITFS licensing service into the MDS/ITFS electronic
licensing system.

MMB’s goals for implementing MDS/ITFS included streamlining staff resources; providing a
fast, efficient processing method for furthering competition in the mass media spectrum area;
and improving public access to broadcast records. To accomplish this, MMB required the
developer to create a fully documented MDS/ITFS that:

   •   performs engineering studies;
   •   provides for electronic data filing;
   •   issues licenses;
   •   provides public access;
   •   accepts modifications and amendments;
   •   tracks status;
   •   reports on speed of disposal;
   •   processes fee sufficiency;
   •   reports on all output and data conversion; and,
   •   provides application processing modules.

MMB accomplished this by tasking DynCorp to develop the MDS/ITFS as a client-server
PowerBuilder/Sybase application processing system that supports electronically filed MDS and
ITFS broadcast application forms. This provides electronic forms filing, authorization of service
processing, internet public access, report processing, and speed of disposal reporting to
licencees. MMB’s MDS/ITFS development and implementation began as a $403,000 project in
FY 1994 that was finally delivered in February 2000 after encountering numerous project delays,
which escalated to a final development cost of over $2.24 million. Please refer to the Appendix
for a contract chronology of events highlighting the history of the MDS/ITFS project, including
incomplete deliveries and contract delays.

SCOPE OF SURVEY WORK PERFORMED

This project was conducted as a survey. A survey is the preliminary audit work done before an
audit and is not an audit conducted in accordance with Government Auditing Standards (i.e.,
GAO “Yellow Book” standards). The purpose is to gather general working information on
important aspects of an entity, activity, or program, such as MDS/ITFS and to determine the
nature and extent of any subsequent audit effort.

We conducted this survey to examine the progress of the MDS/ITFS project, report the results to
the Inspector General, and recommend the next course of action. To meet this goal, this survey
provides an overview of the MDS/ITFS, analyzes and reports identified problems in the projects
development process, and reports whether any aspects of the MDS/ITFS needs further OIG
involvement and review.

OIG auditors employed the following methodology to accomplish the survey objectives:
       •   Interviewed the MMB Program Manager, Contracting Officer Technical
           Representatives (COTR), MMB engineers assigned to the MDS/ITFS development
           project, and the Information Technology Center (ITC) Customer Service
           Representative (CSR); and

       •   Reviewed MDS/ITFS development project progress reports, chronologies of events,
           contract statements of work, and the task order cost sheets.

SUMMARY OF OBSERVATIONS

As part of the survey process, we evaluated MDS/ITFS development and implementation to
identify areas where weaknesses or inefficiencies exist, which may require more comprehensive
audit coverage. MDS/ITFS represents a measurable improvement over the largely manual
systems it replaced for processing MMB auctions license applications. However, we did identify
significant cost overruns that resulted from delays and disruptions in MMB’s development and
implementation of MDS/ITFS.

As detailed in the Appendix, MDS/ITFS development and delivery encountered numerous MMB
and contractor caused delays and disruptions before delivery was finally made in February 2000.
This combination of MMB and DynCorp actions caused contract performance delays,
disruptions, and contract changes significantly contributed to costs escalating from
approximately $403 thousand initial contract amount in FY 1994 to more than $2.4 million when
MDS/ITFS development was finally complete and the system was implemented in February
2000. MMB recognized and noted the inherent project problems in its third quarter FY 99
project review when MMB cited the following risks that may threaten the project schedule, cost,
or ability to meet project objectives:

   1. Existing MDS database conversion tasks or software modification requirements may take
      longer than anticipated to implement.

   2. Required systems upgrade to newly installed year 2000 compatible software and server
      environment may take longer than anticipated to implement.

MMB’s quarterly review also represented that the ITFS was implemented and in production
mode on February 15, 1999 and the MDS portion was targeted for implementation by the end of
August 1999. However, based on discussions with the two MMB COTRs and the Customer
Service Representative from ITC, full implementation of MDS/ITFS did not happen until mid-
January 2000.

FCC officials cited a variety of Commission and contractor deficiencies that contributed to the
MDS/ITFS development and implementation delays, including:

       •   The FCC’s AMD-IM administered the initial project under a DOJ contract from FY
           1994 through September 3, 1996 using basically a “hands-off” approach for
           technically managing the project. As a result, a detailed specifications document for
           the project as never developed. Because of this, the Commission underestimated the
           size and cost of the project. Additionally, MMB received a substantially incomplete
           product when they took over the project on September 4, 1996.

       •   It took the MMB approximately six months to figure out what to do with the service
           after taking over the project. MMB assumed that the project was near completion
           when they took over, however, the project was inadequately documented, which did
           not provide the contractor with the necessary details for project development. Today,
           the MMB project manager believes that the $400,000 initial project development
           estimate was unrealistically low and estimates that the cost should have been at least
           $1.5 million to develop and implement.

       •   Even though MMB provided extensive documentation to the contractor, the Bureau
           faced initial obstacles such as: (i) FCC personnel assigned to the project did not
           understand project management, and (ii) the contractor experienced rapid employee
           turnover that involved a constant re-indoctrination and education process. The
           contractor’s employee turnover rate especially adversely affected project continuity.
           For instance, the first project manager left DynCorp only a few months after project
           was initiated. As a result, DynCorp assigned less experienced personnel to head up
           the project at various times in the beginning stages of the project, including assigning
           a Technical Writer as project manager for approximately six months, followed by
           another DynCorp employee with limited data base experience who designed the
           system.

       •      MMB added ITFS development to the MDS project during the middle of
           application development. This significantly complicated the project, because the
           MDS and ITFS were based on to completely different licensing schemes. MDS was
           based on the Common Carrier Bureau’s licensing process and the ITFS was based on
           MMB’s licensing process.

       •   MMB accepted delivery of the MDS/ITFS, which was not adequately tested and no
           “hard-core” design documents describing what the MDS/ITFS should or should not
           do were produced.

CONCLUSION

Based on the results of this survey, the Office of Inspector General should not perform any
additional audit work on the MDS/ITFS system. Instead, the OIG should focus on Information
Technology (IT) Capital Planning and should continue to monitor the progress of the proposed
Licensing Bureau’s working group. An audit of MDS/ITFS development would just reiterate the
findings of this survey, only in more detail. Further audit work by the OIG solely on MDS/ITFS
would most likely duplicate the work being done to streamline the licensing process. Also, a
focus on one system in a single Bureau is counterproductive to the goals of the Draft Strategic
Plan.

Although we identified weaknesses and inefficiencies with MDS/ITFS development effort, we
believe that the Commission’s recent adoption of a Commission-wide Systems Development
Life Cycle (SDLC) will address causal factors that contributed to the problems with the
MDS/ITFS development process identified during our survey. Further, we believe that an audit
of Information Technology (IT) capital investment planning2 scheduled for this fiscal year will
address additional factors that contributed to the weaknesses and inefficiencies we identified.
Finally, the Draft Strategic Plan for the Federal Communications Commission included a plan
for the Commission to restructure and streamline its licensing activities. This goal resulted in the
establishment of the Licensing Working Group. The group developed a set of viable alternatives
for streamlining the licensing function. The group documented its findings in its report,
“Improving the Commission’s Licensing and Authorization of Service Functions.” The Office
of Inspector General should continue to monitor the progress of the Licensing reorganization
process. The OIG will observe these activities to determine if they are consistent with the goals
of the Draft Strategic Plan consistent with its audit mission of providing an independent,
systematic assessment of an FCC program.




2      The objective of the IT capital investment planning process is to determine its effectiveness and its
       compliance with Office of Management and Budget (OMB) Circular No. A-130.
                                                                                         Appendix


MDS/ITFS Chronology of Events

•       Fiscal Year (FY) 1996: MMB established a task order under the Commission’s contract
    with DynCorp, Task Order No. 96-10, to conduct systems development work on this project.
    As part of this task order, DynCorp I&ET was to provide MMB with the following
    deliverables:

    1. Project Definition: Deliver a project definition document by the second week of the
       contract.

    2. Current Form Data Entry Database (Forms DB) and Data Entry Mechanism (DEM) for
       Form 304, 430, Statement of Intention (SOI): By week 4, successfully input into the
       Current Forms DB through the Current Form DEM Forms 304, 430, and SOI data with
       printouts of Sybase stored procedures.

    3. Data Download Processes: For each database (Altos, Ingres, Current Forms DB), data
       downloads will be demonstrated and copies of Sybase stored procedures and use of basic
       APS screens for data verification to be delivered in week 10.

    4. Database Update Processes and Forms DB Redesign: Copies of Sybase stored
       procedures, new Forms DB document, and preliminary process DB design document to
       be delivered by week 11.

    5. Application Processing System (APS) and Database (Phase I): By week 14, this
       deliverable requires APS executable applications and libraries with functionality as
       described for MDS/ITFS engineering studies (Mileage Search Engineering Program);
       application disposals (granting and rescinding to be functional through APS and licenses
       & BTA authorizations will print through APS); amendments (Status 80-82); and
       application process for status 30-32 and 40-49. It also requires printouts of Sybase store
       procedures, a Public Notice printing demonstration, and identified pending reports to be
       printing through the APS.

    6. MDS/ITFS Engineering Studies: By week 18, the contractor to deliver completed and
       functional engineering studies and demonstrate the process and provide printouts of C
       code and Sybase stored procedures where appropriate.

    7. Reports: The ability to produce all other reports identified in the Project Definition will
       be printing through the APS by week 20.

    8. New Forms Data Entry Mechanism (DEM): The contractor will demonstrate the DEM
       for Form 304 by week 10, with other MDS and ITFS forms demonstrated as they become
       available. The New Forms DEM demonstration for each form will show data validation,
       public access capability, and fee processing. The DEM screens will be used for editing
       “held” data (e.g., data successfully submitted into the Forms DB but not accepted into the
       Process DB (i.e., amendment application data). Form submission for FCC acceptance
       will begin by week 12 and will be completed by week 22. Forms will be developed as
       prioritized by MDS and ITFS in the Project Definition. This deliverable requires the
       ability for data entry and editing; printouts of HTML, CGI, and PERL code; and printouts
       of Sybase stored procedures required for data conversion to the Process DB for each form
       by week 22.

    9. Response to Reporting Requirements: The contractor will fulfill this deliverable by
       weekly demonstrations, when appropriate, of project progress and by prototype
       demonstrations performed as application processes become available for FCC review.

    10. Fully Implemented MDS/ITFS System (Application Processing System and Database
        [Phase 2]): By week 25, the contractor will have completed the MDS/ITFS data
        download processes and downloads (final refresh download of data prior to system
        turnover to the FCC); all forms for New Forms DB implemented; through APS,
        Application Disposals and Application Process Status for all other processes are
        completed and functional (including output requirements); Public Notice Output; and
        System Documentation (program, maintenance, and user guide). APS executable
        application and libraries with functionality as described, printouts of Sybase stored
        procedures, and System Documentation is scheduled for delivery at week 23.
        Deliverable 5 only described the Grant Function, additional functions were not included.
         Deliverables 6 through 10 were not produced, but were incorporated, as needed, into
        T.O. 97-10.

•       FY 1997: FCC contract no. 96-06, Task Order No. 97-10, administered by MMB as an
    extension to T.O. 96-10. Time & Materials (T&M) extension to T.O. 96-10. This T.O. was
    extended two different times with final closeout on June 24, 1998. The following
    deliverables were still in the development/test stage after the closeout date:
    • Forms data entry,
    • Studies,
    • System completion, and
    • Public access.
    User acceptance was for newly filed MDS Form 304 Application grant only.

•   Oct 97 – Dec 12, ’97: FCC contract no. 96-06, Task Order No. 98-04, administered by MMB
    for data conversion. This T.O. provided the initial download of the MDS/ITFS legacy data
    and APG support training. Corrections and modifications to the download function was
    supported by follow-on T.O. 98-07

•       Oct 97 – mid Feb, ’98: FCC contract no. 96-06, Task Order No. 98-07, administered by
    MMB for maintenance & enhancements. This T.O. was terminated in mid-February ’99 with
    the following deliverables still in the test mode:
    • Validation Module,
    • Action Activities, and
    • Engineering Studies.
•      FY ’99: FCC contract no. 96-06, Task Order No. 99-05, administered by MMB for
    maintenance & enhancements is a T&M contract providing ongoing MDS/ITFS maintenance
    and enhancement support.

•   MMB issued Task Order 99-05 in order to modify its new MDS/ITFS system as they
    identified problems and requested enhancements, so that broadcast stations can submit and
    FCC staff can process applications more efficiently and effectively. Under this Task Order
    and upon MDS/ITFS implementation, the MMB tasked DynCorp I&ET to:
    • Correct system problems that prevent FCC staff from doing their work properly;
    • Correct problems that prevent broadcast stations from entering applications properly via
        the internet;
    • Provide enhancements that are required to work more efficiently and effectively or are
        the result of rule or procedural changes and provide user and system documentation for
        changes made;
    • Provide programming support for upgrading programming and database software
        releases; and,
    • Provide technical information to FCC programming staff on the programming approach
        taken in developing various system components.
